         HEARING BEFORE THE U.S. SENATE

              COMMITTEE ON FINANCE




                     July 21, 2004

                   Washington, DC


                  Pamela J. Gardiner
               Acting Inspector General
Treasury Inspector General for Tax Administration
Chairman Grassley, Ranking Member Baucus, and distinguished Members of the
Committee, I appreciate the opportunity to appear before you today to discuss
the tax gap problem, what the Internal Revenue Service (IRS) is doing to address
it, and additional actions that could be taken.

The Composition of the Tax Gap

In the past, the prevailing view was that the tax gap was primarily composed of
unreported and delinquent taxes from the “underground economy.” For example,
self-employed contractors such as painters, housekeepers, and plumbers were
suspected of failing to report and pay taxes on the cash payments they received.
In addition, illegal activities, such as drug trafficking, were thought to be making
large contributions to the tax gap.

However, it has recently become apparent that in addition to the problems with
tax reporting and payment in those areas, there has been an ever-increasing
problem with compliance both domestically and abroad. Reports of corporate
corruption also point to a far greater tax gap problem than was originally
suspected.

In recent years, the legal and accounting professions have also been identified
as contributing to the overall tax gap problem by promoting illegal or questionable
tax avoidance schemes. Increasing the bottom line has outweighed ethics and
professional responsibility in far too many cases. Additionally, the increased
globalization of our economy provides opportunities for corporations and
individuals to avoid taxes using tools available in the worldwide marketplace.
Offshore credit card schemes are just one example of a tool to hide taxable
income in an offshore bank account.

These recent increases in participation in tax avoidance schemes and the
promotion of them by highly-respected firms has evidently fueled a more cavalier
attitude toward the tax system among the general population. Survey results
recently released by the IRS Oversight Board indicated that from 1999 to 2003,
the percentage of people who believe it is acceptable to cheat on their taxes
grew from 11 percent to 17 percent, and almost one-third of young people age
18 to 24 were likely to feel that any amount of cheating on taxes was acceptable.
This is an alarming trend. However, the survey also indicated that 95 percent of
people believed it was “somewhat important” or “very important” for the IRS to
ensure compliance by corporations and high-income individuals.

The Tax Gap—How Big Is It?

No one really knows the true size of the tax gap. In past years, the IRS used the
Taxpayer Compliance Measurement Program (TCMP) to measure compliance
levels among individual taxpayers and identify potential tax law changes to
address the tax gap. However, the TCMP was discontinued in the late 1980’s



                                                                                   2
due to concerns about its intrusiveness. The IRS has undertaken efforts to
replace the TCMP with an initiative designed to measure compliance of both
individuals and businesses. This initiative is called the National Research
Program (NRP). However, the NRP has experienced delays, and initial data to
update the individual tax return selection formulas will not be available until
January 2006.

In the late 1990’s, the IRS shifted its focus from enforcing tax compliance to
improving customer service. This resulted in improvements in the customer
service area, but enforcement actions were significantly reduced, and staffing
levels in the enforcement areas decreased substantially.

As a result, the IRS estimates the annual gross tax gap (total tax liability for a
given tax year less tax paid voluntarily and timely) increased from $282.5 billion
in Tax Year (TY) 1998 to $310.6 billion in TY 2001. Subtracting late tax
payments from that figure results in a net tax gap increase from $232.5 billion to
$255.2 billion.

What Is the IRS Doing to Address the Tax Gap?

The IRS is making some progress in addressing certain components of the tax
gap. For example, as the following chart shows, in Fiscal Year (FY) 2003,
enforcement revenue collected increased by 10 percent after remaining fairly
constant during the prior 3 years, and there were more collection actions in
FY 2003 than in FY 2002. Additionally, after steadily rising for 6 years, the
amount of gross accounts receivable was reduced slightly (by $1.67 billion) from
FY 2002 to FY 2003. The IRS is taking a number of actions to improve its ability
to react more quickly to an actual or potential tax debt. These actions include
shortening the collection notice cycle and migrating toward a risk-based
approach to collecting delinquent taxes.




                                                                                     3
Amounts of Enforcement Revenue Collected Compared to Growth in Gross
                        Accounts Receivable


                                          E nforcem ent Revenue                       G ross Accounts Receivable

                       $41                                                                                                   $290




                                                                                                                                           Billions
                                                                                                     $280
                       $40                                                                                                   $280
 Billions




                                                                                       $276                    $278
                       $39
                                                                                                                             $270




                                                                                                                                    Gross Accounts Receivable
                       $38       $37.96                                    $264
 Enforcement Revenue




                                                                                                             $37.63          $260
                                              $37.25           $257
                       $37
                                                                                                                             $250
                                                  $246
                       $36
                                     $236                  $35.20                                                            $240
                       $35
                                                                             $33.80       $33.78            $34.09           $230
                       $34

                       $33                                                                                                   $220
                                 $216                             $32.94
                       $32                                                                                                   $210
                             FY 96        FY 97        FY 98        FY99      FY00         FY 01     FY 02           FY 03

Source: IRS Enforcement Revenue Information System and Chief Financial Officer Financial Reports

Another objective of the IRS is to discourage and deter noncompliance within
tax-exempt and government entities and the misuse of such entities by third-
parties for tax avoidance. Examinations are currently underway of tax-exempt
credit counseling organizations and abusive tax avoidance transactions involving
tax-exempt organizations.

As part of its efforts to combat tax shelters, the IRS is expanding its partnership
with state tax agencies to pursue abusive tax transactions and address other
criminal activity. As of early June, the IRS Commissioner reported the IRS has
shared 28,000 leads with states, and the IRS and states have uncovered tens of
millions of dollars in previously unidentified abusive transactions during the early
stages of this partnership effort. In addition, the IRS Commissioner has recently
more than doubled the size and clarified the mandate of the Office of
Professional Responsibility to help ensure attorneys, accountants, and tax
practitioners abide by the standards and laws that apply to their professions.

                             Example of Tax Shelter Efforts - Combating Offshore Schemes

                       The IRS has begun addressing taxpayers’ attempts to avoid taxes through
                       the use of offshore techniques. Congressional witnesses have estimated
                       that 1 to 2 million taxpayers avoid $40 to $70 billion in taxes annually
                       using offshore bank accounts. The IRS developed the Offshore Credit
                       Card Project (OCCP) to address this problem and made it a strategic
                       priority for FYs 2003-2004. The OCCP uses information from the




                                                                                                                             4
       transactions of credit cards issued from offshore banks to identify
       taxpayers evading taxes and the promoters of this type of scheme.

       IRS results as of March 31, 2004, for this Project have been mixed.
       Although nearly $5 million in additional assessments1 have been made on
       approximately 300 cases, the direct examiner cost associated with these
       cases is almost $1.5 million. This cost does not include the intensive labor
       costs associated with initiating these cases. In addition, the vast majority
       of the more than 3,000 completed cases have been closed without an
       assessment of any additional taxes.

       Another IRS Project, called the Offshore Voluntary Compliance Initiative
       (OVCI), grew out of the OCCP and provided an opportunity for users of
       offshore accounts to come forward and pay back taxes, interest, and
       certain penalties but avoid fraud penalties or criminal prosecution. This
       initiative ran from January 14 to April 15, 2003.2 The OVCI reflected
       attempts to bring taxpayers back into compliance quickly while
       simultaneously gathering more information about the promoters of these
       offshore schemes. As part of the request to participate in the OVCI,
       applicants were required to provide full details on those who promoted or
       solicited the offshore financial arrangement.

       IRS results for the OVCI were more encouraging than those from the
       OCCP. In February 2004, the IRS reported this initiative had yielded over
       $170 million in taxes, interest, and penalties to the United States Treasury.
       The data the Treasury Inspector General for Tax Administration (TIGTA)
       reviewed indicated that the direct examiner costs associated with this
       project were only around $220,000. However, the data showed that even
       though the applicants voluntarily provided the tax information, over half of
       the completed cases had been closed without additional assessments.

What More Can Be Done To Address the Tax Gap?

Improving voluntary compliance rates is critical to the health of America’s tax
system. While the IRS is taking actions to address the tax gap and has a
strategy focused on reducing it, the data models that this strategy is based on
are over 15 years old. As a result, the IRS cannot be sure it is deploying its
critical compliance resources to most effectively address the tax avoidance
schemes that have arisen since these models were developed. Updated and
reliable compliance data are critical to ensuring effective compliance planning
and deployment of resources, as well as to providing justification to support
legislative proposals designed to assist the IRS in addressing the tax gap.

1
  This figure includes tax assessments only—associated penalty and interest assessments were
not included.
2
  The deadline to come forward was April 15, 2003. However, there are still open OVCI cases in
Examination’s current inventory.


                                                                                                 5
In recent years, TIGTA has made various recommendations to enhance the IRS’
ability to identify nonfilers and assist in obtaining tax returns and payments.
These recommendations address various components of the tax gap and could
supplement the IRS’ overall strategy to address it.

      Withholding on Non-employee Compensation

      One solution TIGTA believes would have a serious and quantifiable
      impact on compliance among the self-employed would be a legislative
      provision to mandate withholding on non-employee compensation
      payments, such as those provided to independent contractors. TIGTA has
      made recommendations to the IRS that it initiate a proposal for a
      legislative change in this area in two separate reports. The IRS has
      agreed to consider such a proposal. The Taxpayer Advocate has also
      recommended this step in her 2003 Annual Report issued to the
      Congress.

      Research indicates that in 1998, 64 percent of the income tax gap and
      40 percent of the employment tax gap was attributable to self-employed
      individuals. Later analyses indicate that these percentages have been
      growing. Because noncompliance in the self-employed population
      remains a significant component of the tax gap, TIGTA maintains that
      implementing a provision in this area could reduce the tax gap by billions
      of dollars.

      In addition to implementing withholding on non-employee compensation,
      other actions should be taken to improve compliance among independent
      contractors. For example, improvement is needed to address inaccurate
      reporting of Taxpayer Identification Numbers (TIN) for independent
      contractors. For TYs 1995 through 1998, the IRS received about
      9.6 million statements for Recipients of Miscellaneous Income (Forms
      1099-MISC), reporting approximately $204 billion in non-employee
      compensation that either did not contain a TIN or had a TIN that did not
      match IRS records. This problem could be addressed by mandating that
      the payer and payee verify the TIN at the beginning of their relationship,
      but legislation would again be required.

      Improving Compliance With Estimated Tax Payments

      Estimated tax is the method used by individual taxpayers to pay taxes on
      non-wage income on a quarterly basis. About 12 million taxpayers made
      estimated tax payments totaling $183 billion for TY 2001. However, there
      is significant taxpayer noncompliance with estimated tax requirements.
      For each tax year from 1995 through 2000, between 5.7 million and
      6.8 million individual taxpayers were assessed penalties for making



                                                                                   6
          insufficient or late estimated tax payments. Many of these taxpayers also
          filed tax returns reporting unpaid taxes that resulted in the IRS having to
          take costly collection actions.

          Revisions to the way the penalty is computed, legislative changes to
          require monthly payments, increases in the promotion of electronic
          payments, and issuance of a reminder notice to taxpayers who have paid
          estimated taxes in the past, could improve the compliance rate of these
          taxpayers.

          Matching Documents to Verify Business Income

          TIGTA has also identified improvements that should be implemented to
          improve compliance in business tax filing. For example, although
          individual wage earners that receive a Wage and Tax Statement
          (Form W-2) have their wages verified through a matching program, a
          similar comprehensive matching program for business documents
          received by the IRS does not exist.

          The Government Accountability Office3 recently reported that more than
          60 percent of U.S.-controlled corporations and more than
          70 percent of foreign-controlled corporations did not report tax liabilities
          from 1996 through 2000. Implementing a comprehensive matching
          program to identify noncompliance among businesses would be difficult
          and could require some legislative changes, but it could identify significant
          pockets of noncompliance within the business tax universe.

          Addressing Compliance in the Global Marketplace

          Compliance among partnerships with foreign partners is another area that
          needs to be addressed. For example, the law requires that partnerships
          withhold taxes on certain income allocable to foreign partners. Tax is
          withheld on each foreign partner’s distributive share of the income.
          Further action is needed to ensure that this withholding occurs and is
          accurate, and that refunds are only issued when the withholding is
          present.

          Increasing the Examination Rate

          Various studies have confirmed the connection between higher
          examination rates and better rates of voluntary compliance, even beyond
          that of those individuals examined. One study issued in 1990 projected
          that the indirect effects of examinations produced $6 out of every $7 in
          additional revenue. Another more recent study projected that doubling


3
    Formerly known as the General Accounting Office.


                                                                                        7
the examination rate would increase assessments and collections by
$16.7 billion.

Although individual examination rates increased from FY 2000 to
FY 2003, the vast majority of that increase is due to increases in
correspondence examinations, which are likely to be much less effective
in improving voluntary compliance of the general population than face-to-
face examinations. The number of examinations of all corporate tax
returns continuously decreased from FY 1997 to FY 2003, decreasing a
total of 67 percent during that time period. In FY 1997, 1 out of 52
corporate returns filed was examined, and in FY 2003, 1 out of every 182
was examined.

Increasing Staffing in the Enforcement Functions

As stated earlier, staffing in the IRS’ compliance areas has decreased
significantly in the last few years. The Collection and Examination
functions’ combined enforcement staff declined from 25,000 at the
beginning of FY 1996 to 16,000 at the end of FY 2003, a 36 percent
decrease. In the Criminal Investigation (CI) function, Special Agent
staffing at the end of FY 2003 was lower than in 3 of the last 4 years, and
hiring efforts are struggling to keep pace with attrition. Staffing issues will
become even more critical, as 45 percent of the currently employed
Revenue Agents and Revenue Officers are eligible for retirement in the
next 5 years.

The Administration’s budget proposal for FY 2005 includes increased
staffing for compliance functions, and the IRS Commissioner has indicated
that some of the increase would be allocated to corporate compliance.
Allocating training funds to less experienced employees will also be critical
as highly-experienced employees retire from their positions.

Ensuring Individuals Sentenced for Tax Crimes Comply With Their
Sentences

A recent outside study showed the activities of the IRS’ CI function have
a strong measurable impact on voluntary compliance. However, in 18 of
26 cases TIGTA reviewed in a recent audit, convicted criminals did not
comply with the conditional terms that were imposed as part of the
sentence. In 12 of those cases, the IRS did not notify the probation
officers or the courts of this noncompliance. The IRS is taking action to
improve the procedures in this area, and TIGTA believes that ensuring
these actions are effective will send a clear message to the general public
on the importance of complying with the tax laws.




                                                                                  8
In closing, I would like to reiterate the IRS has numerous significant efforts
underway to address the various components of the tax gap. It is particularly
critical that the IRS continue to obtain updated data from the NRP to enable it to
revise the compliance data models, make more accurate forecasts of the extent
of noncompliance, and ensure it uses its limited compliance resources in the
most effective manner. TIGTA has recommended more actions which, if taken,
could assist the IRS in its efforts. Finally, as has been stated numerous times,
the complexity of the tax code affects both the compliance of the general
population and the ability of the IRS to identify and take action on
noncompliance.




                                                                                     9
